                       UNITED STATES DEPARTMENT OF EDU CATION

                                     OFFICE OF INS PECTOR GENERAl.




                                                FEP      6 2003


MEMO RANDUM


TO: 	          Jack Martin
               Chief Financial Officer




FROM : 	       Helen  uw   t{ek- W
               Acting Assistant Inspector General for Audit Services

SUBJECT: 	     AGREED-UPON PROCEDURES REPORT
               Fiscal Year 2002 Federal Agencies' Centralized Trial·Balance System
               ED-OIG/AI7-DOOO3

The enclosed report presents the results of the U.S. Department of Education ' s Federal
Agencies ' Centralized Trial·Balancc System (FAcrS) verification agreed-upon procedures
engagemenl. The purpose of the engagement was to perfonn certain procedures to compare
and identify djfferences between the Depat1ment's yearend summarized FACTS data and the
Department ' s fiscal year 2002 audited financial statements. The Office of Inspec tor General
(OIG) contracted with Ernst & Young, LLP, Certified Public Accountants, to perfonn the
engagement. The OIG monitored the progress and completion of the work to ensure
compliance with Govemmefll Allditirlg Stalldards and standards established by the American
institute of Certified Public Accountants.

The auditors have discussed the findings with you or appropriate members of your staff during the
engagement. This report is intended sole ly to assist the Department of the Treasury, Financ ial
Management Service (FMS), the General Accounting Office (GAO), and the Office of
Management and Budget (OMB), in evaluatmg Department management's assertions about the
summarized FACTS data. As such, no fUlther action on your part is necess<lTy.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued by the
Office of Inspector General are l.tvailable, if requested, to members of the press and general
public to the extent information contained therein is not subject to exemptions in the Act.
Copies of this report have been provided to the persons shown on the distribution list.




                              400MARYlJr.ND ....VE SW W....SHINGTON.DC 202Q2-15 10
•




    Jack Martin                                                          ED-OIG/A 17-D0003
    Page 2


    We appreciate the cooperation given us and Ernst & Young. LLP, during the engagement.
    Should you have any questions concerning the report, please contact me at 205-9604 or Todd
    Givens at 205-7945.


    Auachment

    Distribution List:

    Mark Carney - OCFO
    Terry Bowie - OCFO
    Bill Flemming - OCFO
AGREED UPON PRO( FDURES
FACTS
U.S. Department or Education
Year Ended Sl.!ptember 30.2002
                 Report of Independent Accountants on Applying
                            Agreed-Upon Procedures

                                 Table of Contents


Agreed-Upon Procedures ReJlort

Attachments
      Procedures and Findings

Exhibits
      Split Account Worksheet

      AGW Balance Sheet                                          II

      AG W Statement of Net Position                             III

      AGW Statement orNe! Cost                                   IV

      Schedule ofDiflerences in SGL Accounts between the
      ATB Data and the NOTES Report Data                         V

      FACTS A TB Report                                          VI

      FACTS I NOTES Review Schedule                              VII
ill CANST&YaUNC LLP                                              • 	 1225 Connecticut Avenue, N.W.
                                                                     Washington, D.C. 20036
                                                                                                     • Phone: 202 327 6000




                               Independent Accountant's Report 

                             On Applying Agreed-Upon Procedures 



  To the Inspector General
  U.S. Department of Education

  We have performed the procedures enumerated in the attachment, which were agreed to by the
  Department of the Treasury's Financial Management Service (FMS), the General Accounting
  Office (GAO), and the Office of Management (OMB). These procedures were performed solely
  to assist them in evaluating the U.S. Department of Education (the Department) management's
  assertion that it compared the Federal Agencies' Centralized Trial-Balance (FACTS) I Data of
  February 3, 2003 to the related information in the Department's consolidated financial
  statements as of and for the year ended September 30, 2002, and determined that such
  information is in agreement except for the differences identified on the account grouping
  worksheets (AGWs) for the Balance Sheet, Statement of Changes in Net Position and Statement
  of Net Cost. This agreed-upon procedures engagement was performed in accordance with
  attestation standards established by the American Institute of Certified Public Accountants. The
  sufficiency of these procedures is solely the responsibility of FMS, GAO and OMB.
  Consequently, we make no representation regarding the sufficiency of the procedures described
  in the attachment either for the purpose for which this report was requested or for any other
  purpose. The procedures performed and the related findings are enumerated in the attachment.

  We were not engaged to, and did not; conduct an examination, the objective of which would be
  an expression of an opinion on management's assertion. Accordingly, we do not express such an
  OpInIOn. Had we performed additional procedures, other matters might have come to our
  attention that would have been reported to you.

  This report is intended solely for the information and use of FMS, GAO and OMB and is not
  intended to be and should not be used by anyone other than these specified parties.




  February 6,2003 

  Washington, D.C. 





                          Ernst & Young   LLP   is a member of Ernst & Young International, Ltd.
                                                                            Attachment
:!J f:UN!) r&: YOUNG                              • Ernst & Young LLP
                                                                                   Page 2

                   AGREED-UPON PROCEDURES AND E&Y FINDINGS

  Procedure 1

  We traced the amounts for split USSGL accounts in the agency records to the Account
  Groupings Worksheet (AGW) split account worksheet and clearly explained any differences. No
  exceptions were noted.

  Procedure 2

  We traced the amounts for each line item in the audited agency consolidated Balance Sheet and
  audited agency Consolidated Statement of Changes in Net Position to the related amounts on the
  AGW column "Amounts from Agency Financial Statements" provided by the CFO and clearly
  explained any differences. We noted immaterial differences due to rounding.

  Procedure 3

  We traced the amounts for each line item on the AGW Balance Sheet and AGW Statement of
  Changes in Net Position for the "Amount from Agency Financial Statements" column to the
  related amounts on the audited consolidated Balance Sheet and audited Statement of Changes in
  Net Position and clearly explained any differences. We noted immaterial differences due to
  rounding.

  Procedure 4

  We footed the AGW Balance Sheet and AGW Statement of Changes in Net Position column
  titled "Amounts from Agency Financial Statements" column. We footed and cross-footed the
  AGW Balance Sheet and AGW Statement of Changes in Net Position column titled "Difference"
  and clearly explained any differences. No exceptions were noted.

  Procedure 5

  We read the explanations for any differences identified by the CFO for the AGW Balance Sheet
  and AGW Statement of Changes in Net Position listed on each AGW. We reviewed the
  explanations for consistency with supporting documentation, and with the results of audit
  procedures performed in conjunction with the current year audit of the related financial
  statements and clearly explained any differences. No exceptions noted.

  Procedure 6

  For amounts labeled as "Differences" on the Ending Balances (Unexpended Appropriations and
  Cumulative Results) at the bottom of the Statement of Changes in Net Position on the AGW, we
  read and compared the explanation for the difference identified by the CFO to the supporting
  documentation for the difference and clearly explained any differences. No exceptions noted.
                                                                                Attachment
~ l:«N~ I & YUUNc.i                                  • Ernst & Young LLP               Page 3

  Procedure 7

  We traced the amounts for each line item for total gross cost, total earned revenue and total net
  cost, net of intradepartmental amounts by budget functional classification (BFC) from the
  audited agency consolidated financial statement footnote to the amounts on the AGW Statement
  of Net Cost column titled "Amount from Agency Financial Statements" provided by the CFO
  and clearly explained any differences. We noted immaterial differences due to rounding.

  Procedure 8

  We traced the amounts for each line for total gross cost, total earned revenue, and total net cost,
  net of intradepartmental amounts by BFC on the AGW Statement of Net Cost for the column
  titled "Amount from Agency Financial Statements" provided by the CFO to the related amounts
  on the audited agency consolidated financial statements footnote and clearly explained any
  differences. We noted immaterial differences due to rounding.

  Procedure 9

  We traced the amounts for each line item in the audited agency consolidated financial statement
  footnote for gross cost, earned revenue, and net cost for interdepartmental amounts by BFC to
  the related amounts on the AGW Statement of Net Cost column titled "Amount from Agency
  Financial Statements" provided by the CFO and clearly explained any differences. We noted
  that consistent with prior years, the Department did not disclose interdepartmental amounts in the
  agency consolidated financial statements.

  Procedure 10

  We traced the amounts for each line item for gross cost, earned revenue and net cost for
  interdepartmental amounts by BFC from the AGW Statement of Net Cost column titled
  "Amount from Agency Financial Statements" to the amounts on the audited agency consolidated
  financial statement footnote provided by the CFO and clearly explained any differences. We
  noted that consistent with prior years, the Department did not disclose interdepartmental amounts
  in the financial statements.

  Procedure 11

  We traced the amounts for each line item for total gross cost, total earned revenue, and total net
  cost from the AGW Statement of Net Cost column titled "Amount from Agency Financial
  Statements" to the related amounts on the audited agency consolidated financial statement
  footnote provided by the CFO and clearly explained any differences. We noted immaterial
  differences due to rounding.
                                                                               Attachment
!!1 fNNS I & YUUNeJ 	                               • Ernst & Young LLP               Page 4

  Procedure 12

  We traced the amounts for each line item for total gross cost, total earned revenue, and total net
  cost from the audited agency consolidated financial statement footnote to the related amounts on
  the AGW Statement of Net Cost column titled "Amount from Agency Financial Statements"
  provided by the CFO and clearly explained any differences. We noted immaterial differences
  due to rounding.

  Procedure 13

  We footed the AGW Statement of Net Cost column titled "Amount from Agency Financial
  Statements" and footed and cross-footed the AGW Statement of Net Cost column titled
  "Difference". No exceptions noted.

  Procedure 14

  We read the explanation for the differences identified by the CFO for the AGW Statement of
  Net Cost and reviewed the explanation for consistency with supporting documentation and with
  the results of audit procedures performed in conjunction with the audit of the related financial
  statements and clearly explained any differences. No exceptions were noted.

  Procedure 15

  We traced the amounts for each respective line item on the AGW FACTS I NOTES Review
  Schedule from the agency consolidated financial statements footnotes, or other supporting data
  to the amounts on the AGW FACTS I NOTES Review Schedule columns titled "Agency
  Source" and "Amount from Agency Source" at the department level and clearly explained any
  differences.

      1. 	 FACTS I Review Schedule contained a difference of $155,573.67 in Note 2 (Fund
         Balance with Treasury) between column 4 ("Amount from FACTS I NOTE") and
         column 6 ("Amount from Agency Source DATA"). The difference represents non-entity
         assets that are not reported on the agency consolidated financial statements.

     2. 	 FACTS I Review Schedule contained differences in Note 6 (Plant, Property &
          Equipment) between column 4 and column 6 for Property, Plant & Equipment,
          Accumulated Depreciation, and Net Property, Plant & Equipment, respectively. These
          differences are due to rounding.

     3. 	 FACTS I Review Schedule contained differences of $48,969,478.26, and $72,719,460.92
          in FACTS Note 13 between column 4 and column 6 for Employer Contributions,
          Imputed Costs, and Total Cost, respectively. These differences are not required footnote
          disclosures in the agency consolidated financial statements.
                                                                              AthlChment
g 	fRN!) r & YOUNG                                 • Ernst & Young LLP               Page 5

     4. 	 FACTS I Review Schedule contained a difference of $20,787.67 in FACTS Note 14
          Prior Period Adjustments for both Increases/Decreases to Equity between column 4 and
          column 6. The difference is not material for disclosure in the agency consolidated
          financial statements.

     5. 	 FACTS I Review Schedule contained differences of $64,990,431,502.90 and
          $38,409,505,836.95 in FACTS Note 19 between column 2 and column 3 for
          Unexpended Obligations from the public, and from other government entities. These
          differences are not required footnote disclosures in the agency consolidated financial
          statements.

     6. 	 FACTS I Review Schedule contained differences in Note 4 (Loans Receivable and Loan
          Guarantee Liabilities) on Section G; line 11; column 2 through 4. These differences are
          due to rounding.

     7. 	 FACTS I Review Schedule Note 4 contained differences of $4,371,410.89, and
          $4,234,253,863.38 on Section C; column 2 and 6 respectively, differences of
          $13,274,460.40 and $1,347.49 on Section D column 2 and 6 respectively and a difference
          of $604,255,925 on Section H; column 2. The Department of Education represents to us
          that these differences will be cleared when a revised FACTS I Review Schedule is
          submitted to Treasury.

     8. 	 FACTS I Review Schedule contained differences of $66,710,898,476.27 and
          $439,129,104.78 on FACTS Notes 19 (Section B; column 3) and 20 (Section A; column
          4) respectively. The Department of Education represents to us that these differences will
          be cleared when a revised FACTS I Review Schedule is submitted to Treasury.

  Procedure 16

  We footed the AGW FACTS I NOTES Review Schedule column titled "Amount from Agency
  Source" and cross-footed the AGW FACTS I NOTES Review Schedule column titled
  "Difference". No exceptions noted.

  Procedure 17

  We read the explanations for the differences identified by the CFO for the AGW FACTS I
  NOTES Review Schedule and reviewed the explanation for consistency with supporting
  documentation and with the results of the audit procedures performed in conjunction with the
  audit of the related financial statements and clearly explained any differences. No exceptions
  were noted.
Exhibit I 

                                               AGENC'\' SECTION
           SGL Amount from




                  n
2990F           1,377 712,754 00 Other Intragovemmentailltlbilihes t"p7~0~00~~~~~~

               11-               GA Reserves & Res Funds due to ~,3n,713.42400

~______________~.::::::::::::::::::::::::::~~~',~37=7='7:'~2:.7~~~00~~~~OK
2990N            , 201'04,884,55 GA Reserves & Res Funds due to -208,606,542,00
                                 Other Governmental liabilities 1,657.45
                                                                -208,604,88-4 55     Ba!a.nce OK




I                  1                                              I000
                                                                                   IN'''~'''_ 

I~"               1                                               I000
                                                                                   IN'o.~    ,,"""


I~~               1                                               I000             1.. 0.· . .,.....




I~"               l                                               000              I.    0... 'OI_ 



I~"               1                                               I000
                                                                                   I..   Do" . .,"'"




~3669554
SPLIT                                                                                                  21512003
Exhibit II 

                                                                                    ILo\l.ANCE SHEET




                                                    .­
                                                                                                                                         Mo¥.a from fUI'Id III 13
                                                                                                                                         ~ IN lund II1II "'" !;1M
    ~"","T~                                         1010      52:. \1/5.0160 182 00     51. "661~ 51361                 _I !13,71 1 .I1,onc:t..oOIoCIO'IIO"' MAF ~

                                                                                                                                        -0<1*_ _ ""



                    ."
                                                                                                                                          _ _ ..., _ . . ­ on
                                                    131DF         15.951.312 00            2~1,&«t.2151             .115,"1,14' 51 .FACTS I
                                                                                   ~


         • Au.ol.

                                                    11I0f0I                                  3H6II.4l'iI20                           t
                                                    ,,~                                  1 169100 1!1112 00
                                                                                         1.204,515,311 .20                     . 00
                                     ""'""                     I ,204,U5,311 .20

                    ..."                            IJION




                                                    ,­
                                                                                           315,013.301 31:




                    ­
                                                    131iN                                  · I !I6B66!i().156

                                     -"'                         IM,2Ol.tM.1I               1&8.1041,11&.7I                    '00

            ......                               ,­                                              ... ,...,
                                                                                             .... 11.041611

                                                 ,,.W                                     5681(,3743.,

                                                r',...                                        .ofI,5M!5&II152'                       +

                                                   """                                    -291 51 6,rt~       401
                                                                                                                                     t
                                                r ""'"
                                                                                       100,188,900 235 82,
                                                +- ,,.,.
                                                   I3&IN                                  -2'31 902.088 \5
                                                   ,,...
                                                rr ,_                                          5,112. 183 12
                                                                                                .....:J 75:1611

                                     ........                                          _13 &C.2.511l 7111 !J5




      _­
                                                              " ,1M.1U,2toI.J.t         " , 101 , I~5.2$4 , ).II               '00




...                                  ~   .... m"    ITSIIN
                                                                   36.115.:101.3\
                                                                                             .16,904,113331
                                                                                            ·111 98\1.631 00
                                                                                             36,"5.:101.31                      ' .00



              F _ .. R. . f _         "*=
                                                "
                                                    I~ION


                                                    13111H

                                                              Id'3""4IoI,"
                                                                              ,   ..
                                                                   JI! 13I!i 62fI 20



                                                                                       145,5J3.01I,12S Ii
                                                                                                          ,.
                                                                                             JII_7311 62fI 20                  . 00

                                                                                                                                ' .00

                                                                                                                    · I M,IUt,6411'



                                                                                                          ,.
                                                                     .ota! ......      145,533,011, 125,14
                                                                                       1~5 533 OOI! 125 a.
                                                                              '"                                                     +


                                                                                                    . ....
                                                r                                                                                    +
                                                                        ,
                                                  ..
                                                    11 1DF                                  186285~~25
                                                    211DF
                                                                       "'
                                                    "' ----------­ -...,"''''---------0<1'1........                                                 <;auMd by


                                     .......
                                             ",,,...
                                                                                          _...,noI"-on

                                                                              , ..
                                                                   lII,401.6lt 00          113,2$4,416.25

                                                                                               11111.112 II
                                                                                        851712_&'11,51031
                                                                                            611l12li ,1»04
                                                                                                                    · ,15.I9Z,..... 25 FACTS .




                                     StlbtOlai      """       " ,711Z, 1441,351.12      19,112,1441,311,52                      0. 00 ,

(;AR_&Ru            r ..... _IOT.........,
                                     ........       "'"
                                                    """
                                           .                                  , ..
                                     ....­
P.,._IO TllUo#)'
                                                    """
                                                    ,,,
                                                    """


                                     aubto••,
                                                    -"""
                                                     """
                                                    """"
                                                      '"
                                                    "'"
                                                    2110H

                                                    ''''''
                                     ........       ""'"

                                                                                         ,.,                                                                         311 PM
                                                                                  IW...O.NCE Sl-IEET




1~::::::;::':01 Eduatlon                                                                                                        t


                                                              11619392,1l68~           lU79392116e~                        ,."
                                                 ""'"
                                         T """                    2166$00000               2186500000          ~           ,."
                                                                                                             T
                                                                                          168,6311,611161
                                         """ 

                                         + 22HIH
                                       ~ ' 'ON
                                                                                           25S11I,DI57t1,
                                                                                                ~HII8S3
                                                                 aa...                     '9       189 79
                                         """"
                                         """   
                                           2B,ll7:RI ~


                                 ...... ""'"
                                                                                          189 12'2.0117 10
                                                                                                 1,1567 '5
                                         """ ---...~~"~--_~~l!ifJif-----c""'""n"""5.
                                                             "',411,_."
                                                                "'.l1"OII..~                                                        c - . d by SGl24OOH.


                                                             110,03-0I,ZU,7Qt,U       110,2$(1,271 ,~7   0         ·IH.on,Ul,to

                                         +                       II.bllil>'y.",,'.      305g02~e1213


                                         '­
                                                                 1_11...,',11"        110,25').211,~7'1




    --­                                  '­
                                         '­
                                                  ""
                                                  3101
                                                 3102F
                                                 JIO:lF

                                                  ""
                                                                             '"        30 691.7&0264 13
                                                                                       51,081,703, 1!III 00,
                                                                                           92,&45,38100,
                                                                                          .9.],JA5,3I!i1 00
                                                                                         ·198,·99~51


                                   .......   ~
                                                  31G7
                                                              It.121,2IHIi,17'.''
                                                                                      .0lil"59,2111118 IS3
                                                                                       ll,121.2OS,U"'''

   ~Cumuo         ......   ~01~    __                         ·2 OJ!I 931 '6281         .2.0J!I931   ..u 16                0.25
                                                  ""
    C _ DWIOd rQu~S IJI OI*~",",


                                                 -
                                                 "'"
                                                 .,,'"
                                                 ",,'"
                                                 "''"
                                                                                               1I3,!33 00:
                                                                                              22U83 $(I
                                                                                        1,381,MB 182 00
                                                                                        "82"'" 733116
                                                                                              122,81883

                                                 """
                                                 "'~ +
                                                 '=' t                                        ...,,,,
                                                                                            507. DOlI
                                                                                               J.t 500113

                                                                                       48,.03S06 128 12:
                                                 .,,'"                                           ·27t11l00
                                                                                             2374111182118
                                                 """ +-­I­
                                                 57\lDF
                                                  5190
                                                                                           2(18,6118 l\<I2 00
                                                                                          ·129,1$(1518001

                                         ~- ~

                                                 .­-......
                                                                                        8,1135666,58310 ..

                                                  """                                      2.t0420.238:!13
                                                                                            -2'851.1111 eo
                                                                                          ·170,232,31225
                                                                                       -68O<1,S5921' 63
                                                  "'"
                                                    ,,'                                     -82, $(II ,29<139
                                                                                           ·11913"'53
                                                  .,""
                                                 .",,,                                         -!>2' 150121
                                                                                          ·391,673 3&5 93


                                                 """""
                                                                                      .0lil21985102'

                                                    ...
                                                    ""
                                                  .,,'"
                                                                                                  ·I502l1 "
                                                                                           121,526 7!.6 00
                                                                                       ..s 733,672 285 02
                                                 "'" ~
                                                 ""'"
                                                 .­
                                                                                          ""5,71940800
                                                                                                '.'2O!I!l
                                                                                           ..so .tOl,028 85
                                                 6710N                                     .,. 0lIJ 1101 00
                                                                                            ·239110,29<135
                                                 """
                                                 "'"                                        -23,7'9 i82 118




                                                    ..
                                                 ...,.                                       26.710'2,20513

                                                 .....
                                                 """
                                                 ""OOH
                                                                                               16385530
                                                                                        .!,797,712 &9i85
                                                                                                -20,78167
                                                                                                ~,781e7

            "*_4~          '*""" "' _ _I         ""'"         ·1.7M,S07.1lUZ
                                                                                             1 «>lI 000 00
                                                                                        ·1.1II.J01.111,U


                                                              ·Ulll,'31,'''.21                                             0.25

                                                              35,282761n878.           35,282,766 niSI.
                                                                                                                           '"



                                                                                        ,.,                                                                l16PM
Exhibit III 

                                                                         - -- -- ,-"
                          __
_
     f
         I
             I
                 ~
                     ~
                                           ~
                                                                                             _ _w

""-
,
,
l~_.
     --
     ----__                                            ......,-
                                                               t
                                                                    ""-
                                                                     noo
                                                                     ,-
                                                                     ,­
                                                                                             ·20»10'
                                                                                                           '"
                                                                                                         ~oo
                                                                                                                         ' AC'TIlAn

                                                                                             ,2,0»11131 "I!oloo .20»$31 "I!ol'1I

                                                                                                                               ·2011161



                                                                                                                    .20»13'.a3 ,1\
                                                                                                                                      ,
                                                                                                                                201811\1
                                                                                                                                        .       -
                                                                                                                                                -

                                                                                                                                                    "'­

                                                                                                                                                      .9~.
                                                                                                                                                               "­




• """'..... _ R . . ­                                          +
                                                                                        ~

                                                                                        +
                                                                                                                                     ,,..
                                                                                                           ,."                       ,.
                                                                                                                                      ,.
                               __              .~UHd!
                                                                                                                                                      6iil
,    ....... 1CN_.T~                   

                                                               -I-
                                                               +
                                                                                        t
                                                                                        +
                                                                                                                                              .­
                                                                                                                                                ­
                                                                                                                                                      'Oll
,
,    ---
     ~".,.,-.. UMCI
                                                               ~


                                                               +           "  ..
                                                                                        E
                                                                                        ~

                                                                                        f    .a,4/l3 5CitI '2900: 18 .a3,5Citl128 72:
                                                                                                                                     ,.+­             000:


                                                                                                                                                      '"
                                                                                                                                                          ..
,
•
     _ ...u_9"R_
     ~_F_




'1l1-...-...R--...
                                                               +         ""'"
                                                                          57_
                                                                                        +
                                                                                        f             -_..                     _~n


                                                                                                                                      ......
                                                                                                                                     ,,
                                                                                                                                                      ,
                                                                                                                                                      ~Ii'




                 _ f l_ _ _ _
                                                               ,+ ,,-
                                                                  ''''''
                                                                          ,,~




                                                                          ,~
                                                                                        E
                                                                                        ,.
                                                                                        +
                                                                                                           ...                        ....
                                                                                                                                       ,,
                                                                                                                                      ,..,
                                                                                                                                      .......
                                                ~


                                                                                                                                                      'igo~
                                                                                        +
" 0..........,.      F.-...cr"III s.:uw.                                  7110f         +                                             ,,
                                                                          n_
                                                                                        t
                                                               +
                                                               +          n ..
                                                                                        +                                             ,,
                                                                                                                                     ,.
                 _10IM0'..........,~_)
                                                               +
                                                               +
                                                                     

                                                                          "'~
                                                                          "

                                                                          ",
                                                                            ..

                                                                          """ .         t
                                                                                        +
                                                                                                              •
                                                                                                                                     ,.
                                                                                                                                     ••••
                                                                                                                                       ...
                 _.0..._.
                                                                                        r

"    ~_F_fII"'-'r                                                         ~,~           ~                                            ,
                                                                                                                                     ,.
                                       '_fII"'-'Yl
                                                                          ~,~


                                                                                                           ••                        ,
     1..-....-..._                                                        ",..
"                             _ t .....,...            __                 ~

                                                                                                      -P.-­
,,-
                                                   ~




,.   ~f....-.g




                                                SulMoU l (OCher).
                                                                          ,,-
                                                                          "
                                                                          ""
                                                                             ..                  'H.g!lll 00



                                                                                               ..20....1,.7UO
                                                                                                                           23,7.g,1I1121111:1I,.

                                                                                                                          2OII,_,!>4200:
                                                                                                                         ·129 U06,ClD"
                                                                                                                         "211."3."1.001 II Got
     t _ """nclntlloun:..                                                                    11061,170111.00'., 067 Ito,lIn e( 1 13
"
"    ..... COlI 01 0 . . -
                                                               ]:
                                                                         -, -
                                                                         ,-,                                                ·sa» 00
                                                                                                                           ·22U'aHII
                                                                                                                                                ­
                                                               +         :!olltFlt
                                                                         U'I!roI~       -                           ·'''1.l16li16200 -
                                                                                                                    ",1Irl",7J,)!I!1
                                                                                                                                                -
                                                               t         Ulif,IX
                                                                          ~.
                                                                                                                          ·122,ll'lIlI3
                                                                                                                                                ­
                                                                         ........""'"
                                                                                                                         -601.0311'­
                                                               +                        +                                                       ­
                                                               +         .......
                                                                          """,          ~
                                                                                                                            .).t 506 13
                                                                                                                    -em,tIM,!Q11I 

                                                                                                                      7«1120,73153
                                                               +                        +
                                                               +                    ,   ~
                                                                                                                        2.IIi5t1llll!1
                                                                                                                       111)23231225
                                                                                                                                                ­
                                                               t -.
                                                               + -,
                                                                                                                    11,I00I M112'.1D
                                                                                                                                                ­


                                                                          ,,-,,-..
                                                                                                                +         82,~',"'30
                                                                 "'''X                                                     'Ig'U8I$l ­
                                                               t .,"'x
                                                                  "
                                                                                                                             !l2I!1072' .­
                                                                                                                         WlIl1J    J6~113
                                                               +                                                    .a21g9S1Q21


                                                                             ..
                                                                          ,,~



                                                               !                                                           IS r.'1118
                                                                                                                         ·n,
                                                                                                                         $J'CI,1!111OO          ­
                                                               ~                                                                                ­

                                                                          --
                                                                          .....
                                                                          ~,

                                                               t
                                                                                                                     5 r3.]lInm 02
                                                                                                                         115718_00              ­
                                                               +          "'"                                                 _'2OfII
                                                                                                                          !oII.wD 021 I!>
                                                                                                                                                ­
                                                                          111111"1                              IHI1I31101 00
                                                               +                                                23lIII02901 ~                   ­
                                                                          """                                                                   -
                                                                          ,­
                                                                          "'"
                                                                          ..,.                           +
                                                                                                                237.8,l1li21111
                                                                                                                2e7W2'0613
                                                                                                                    1113,'" 30
                                                                                                                                                ­
                                                                                                             1,797.712,II(IgIIS:­

                             5UblOIII ("'It Ccm   0{ 01*11""'" )
                                                                          """
                                                                          ""'"                                   ., O!>llIlOOOO
                                                                                             IUMln 20' 00, (g,71151117 201118,1111
,•                                                                                           ~1I3II   •.lII~OO       ~   IIJ8 138 ~\iIOS Ie     c.~
SOnI of CllanlJ" in Nel PositiOn Unellpended-App
                                                                                       ConloUdatlld
                                                  SGl Account   Agency Financial      Amounts From
linellem                                           Number         Ststements           FACTS I ATB         DIHfarances   EliplanatJonl

    Beglnnong Balances                               3>00       30,691.818.744 00 30.691.790.264 13

2 PrIor·Paned AclJustmenlS                           3>09                                          000
          Subtotal (Prior-Partod AdJllltments l                               0.00                 0.00

3 BegIlVlltlg balances. as adjusted                             30.891.818,744 00 30.691.790.264 13               0.00

IIUDCIE1:

• ApPfopriaUons ReceIved                             3101                             57,087.703. 186 00
                                                                                                   000
                Subtou.t (Appropriation' Uledi                  57,087,703,188.00 57,087 .703 ,186 .00            0.00

5 AppJopriaUoni Trans fMIId·Woul 	                   3102F
                                                     3103F
  Subtotal (ApproprlatJons Trans'err.d·inloutl




•   Other Adjustments 	                              31116        ,'(18,499.(155 00     '198.499,956 51           ",
7 	 AppropnallOnS l/Ied                                                                            000
                                                     3107                          -48.459,288,11883
                                      Subtot.ll                 ....45',316.600.00 ..... 59,281.111.63


EndIng Unellpended AppropnatJOnli                               39.121 205.37500 39.121,205,374 99                001
Exhibit IV 

                                                                               NET COST

Net cost work. heet

                                       GROSS COST SECT10N • AGENCY GROSS COST
                      Amount from Agency Financial    Consolidated Amount
      Functions                Statement               From FACTS I ATB            Difference               Explanation

          '"
         500
         750
                                  55,923,000 ,70845
                                                                       000
                                                          55,923.000,708 45
                                                                                                0 00
                                                                                                000

       Subtotal




                                 Inler·Departmental Amounts Included In Agency Net Cost

                      Amount from Agency Financial    Consolidated Amount
      Functions                Statement               From FACTS I ATB            Difference               Explanation
        <50                                                             000                     000
          SOD                                              6,719,651 ,090 48      -6,719,651 ,090 48 ED does not report Inter·Dep
         750
       Subtotal




                            EXCHANGE REVENUE SECTION· AGENCY EXCHANGE REVENUE
                      Amount from Agency Financial Consolidated Amount
      Functions                Statement            From FACTS I ATB   DiHarence                            Explanation
          4SO                                                          000                      000
          500                      6,157,323,50226         6,157,323,50226                      000
          7SO                              2,00000                 2.000 00                     000
         Total                     6,157,325,502,26        6,157,325,502.26                     0.00




                           Inter.Departmental Amounts Included In Agency Exchange Revenue
                      Amount from Agency Financial Consolidated Amount
      Functions                Statement            From FACTS I ATB          Difference                    Explanation
          4SO                                                          0,00                     000
          500                                              1,382,245,640,08                     000 EO does nol report Inter.Oep
          7SO                                                      2,000.00                ·2.000 00
         Total                                 0,00        1,382,247,640,08       ·1,382 ,247,640.08


                      Amount from Agency Financial    Consolidated Amount
                               Statement               From FACTS I ATB           Difference                Explanation
       Net   Cost                 49,165,677,206 19       49,765,677206 19                      000

                                  49,765,677,206 19                                             0 00

DoEd 2002 Final Pre AGW 2<}·03                                                                                                      21512003
Exhibit V 

•
    88.888
    00000    !   8
                 •
                     8
                     •
                         8
                         •
                                                     8.888888
                                                     .. 0 0 0 0 0 0                     !       !~~~:!~!~~~~~~~~~~

~                                                                                                              ~.




                         SI a   0   00   <>   00 <> a 0   a-
                         :38888888888 .. 888,1;:388888888S'::l88888l':l188;:O;88
                                                                   <:> 0   ill § <>   0'; 0   <>.; a   0   -   i: <>   00   <>   0   ~   iD <>Ii; 10   <> <>

                         i                                ~i               ~·t                             ~~                        i~         &~
                 •                                        :oi!!!           ~.                              !~,                           j:!
Exhibit VI 

                                 FACTS ATB Report 

                                      #NAME? 

                                  Fiscal Year 2002 


SGL Account        Combined ATB           ole   Eliminations         ole   Departm ent ATB          ole
10lD                52,116,614,57367      0                                  52,116,614,57367 0
IlION                    35,468,42920     0                                      35,468.429 20 0
1130N                1,169,106,882,00     0                                   1,169,106,88200 0
131 0F               6,865,244,603.51     0     6,623,400,382.00 0              241 ,844,22151 0
131 0N                  375,073,301 37    0                                     375.073.301 37 0
13 19N                  186,866,504 66    C                                     186.866.504 66 C
1340F                        411 ,04168   C                                          411 ,04168 C
1340N                5,691 ,537,423,91    0                                   5,691 .537,42391 0
1349F                         59.20462    C                                           59,204 62 C
1349N                     6,588,569.62    C                                       6,588,569 62+- C
1350F                   297,516,17240     C                                     297 ,516,17240 C
1350N              100,188,900,23582      0                                 100,188,900,235 82 0
1359N                   231 ,902,089.15   C                                     231,902,089 , 5 C
1360N                     5,212,18332     0                                       5,212,18332 0
1369N                        463,752.68   C                                          463,75268 C
1399N               13,642.563,71856      C                                  13.642 ,563,71856 C
141 0N                   38.736,626.20    0                                      38,736.62620 0
1750N                    55,904,933.31    0                                      55,904,93331 0
1759N                    18.989,63100     C                                      18,989,63100 C
2110F                2.892.410,87825      C     2,706,125,386 00 C              186,285,492.25 C
2110N                    69,237 ,52026    C                                      69.237,52026 C
2120F                          8,98300    C                                            8,98300 C
2120N                   260,606,029.39    C                                     260,606,02939 C
2140F                        876,71211    C                                          876,71211 C
2140N                          3,930.06   0                                            3.93006 0
2170F                3,917 ,274,996,00    C     3,917,274,996 00 C
2160N               11 ,679,392,86854     C                                  11 ,679,392,868 54     C
2190N                1,889,918,00268      C                                   1,889,918,00268       C
2210N                    25.591 ,91576    C                                       25,591 ,91576     C
2220N                    28, 137,32154    C                                       28, 137,32154     C
2225F                     3,568,843,70    C                                        3,568,843 70     C
2320F
              t-
                         72,111 ,162.97   C                    +                  72,111 ,16297     C
2320N         r               51 .00853   C                                            51 ,008.53   C
2400F                    96,560,626.01    C                    +                  96,560,626.01     C
2400N                    49,884,189.79    C                                       49,884,18979      C
2510F
2520F
                    89,712,641 ,510 .37
                         68,628,133.04
                                          C
                                          C                    t
                                                               +
                                                                             89,712,541 ,510.37
                                                                                  68,628,133 04
                                                                                                    C
                                                                                                    C
2S90N                2.706,125.38600      C                                   2.706,125,386 00      C
2650N                    21 ,665,000 00   C                                       21 ,665,000 00    C
2970F                2,007.080,299 74     C                                   2007.080,299 74       C
2980F                    13.674,30526     C                                       13.674,30526      C
2980N                   189,122.097 .10   C                     c                189.122,097 10     C
2990F                1.377,712,754 00     C                                   1.377,712,754 00      C
2990N                   208,604 .884 55   0                    +                 208,604 ,884 55    0
3100                30,691 ,790,264 13    C                    t             30,691 ,790,264 13     C
3101                57,087,]03,186 00     C                    +             57 ,087,703,186.00     C
3102F                    92,845,381 .00   C                    t                  92,845,381 00     C
                                                               t-
3103F                    93,345,381 00    0                                       93,345,38100_     0
3106                    198,499,956 51    0                    t                 198,499,956 51     0
3107                48.459,288,118.63     0                    +             48.459,288,11863       0
                                                               t
3310                 2.039,93146316       0                                   2,039,931 ,463 16     0
5200F                         53,533.00   C
                                                               +                       53,533.00
                                                               t                                    C
5200N                        221 .78350   C                                           221 ,78350    C
5310F                1,387,658,16200      C                    +              1,367,858,16200       C
5310N
5319N
                     4,782,461 ,73396
                             122,87883
                                          C
                                          C
                                                               ,-t            4.782,461 ,73396
                                                                                      122,87883
                                                                                                    C
                                                                                                    C
5320N                              5,074,936,08    C                                     5,074,93608      C
5329N                                  34,504 13   C                                         34,504 13    C
5600N                                 484,93553    C                                        484,93553     C
5700                          48,463,506, 128.72   C                               48,463.506,128 72      C
5730F                                  27,000.00   0                                         27,000 00    0
5780F                             23,749,98266     C                                    23,749,98266      C
5790F                            208,606,542 00    C                                   208,606,542 00     C
5799                             729,150,51604     0                                   729,150,516.04     0
590CF                          6,835,666,563 10    C                                6,835,666,563. 10     C
                                                                       t­    "
5900N                            240,420,239 53    C                                   240,420,239 53     C
5909F                             24,857,911.86    0                                    24,857,91186      0
                                                                       t­
5909N                            170,232,312..25   0                                   170,232,31225      0
                                                                       ~
5990F                          6,804,559,21463     0                                6,804,559,21 4 63     0
                                                                       t-
5990N                             82,501 ,294 39   0                                    82.501 ,294 39    0
5991F                             11,913,491 53    0                   t                11 ,9 13,491 53   0
5991N
6looF
                                      524,60721
                                 392,673,365.93
                                                   0
                                                   0                   t                    524,60721
                                                                                       392,673,36593
                                                                                                          0
                                                                                                          0
6l00N
6190N
                              48,219,957,408 24
                                       15,026.19
                                                   0
                                                   0
                                                                       '"
                                                                       L
                                                                                   48.219,957,40824
                                                                                              15,02619
                                                                                                          0
                                                                                                          0
                                                                       t­
6199N                            721.526,756.00    C                                   721,526,756 00     C
631OF                          5,733,672,28502     0                                5,733,672,28502       0
                                                                       t-
6330F                            415,7 19,406.00   0                                   415,719,406 00     0
6330N
6400F
                                      566,120.99
                                  50,403,028.85
                                                   0
                                                   0
                                                                       ,
                                                                       t                    566,12099
                                                                                        50,403,028 85
                                                                                                          0
                                                                                                          0
67tON                             14.083,90700     0                   t     t          14,083,90700      0
                                                                       t-    t­
6720N                             23,990,294 35    0                                    23.990,29435      0
6730F                             23,749,982.66    0                                    23,749,98266      0
                                  26,792,205.13
                                                                             +          26,792.20513
6790N                                              C                                                      C
6800F                                 163,85530    C                                        163,85530     C
                                                                       t-    t­
6800N                          1,197 ,712,69965    0                                1,797,712,699 65      0
1400F                                  20,167.67   0
                                                                       f                     20,78767     0
7400N                                  20,767,67   C                                         20,78767     C
7600N                              1,058,000.00    C                                     1,058,000 00     C
Total Assets                 152,156,438,50794     0   6,623,400.382 00. D        145,533,038,12594       0
TOlal EqUIty                  37,081,273,91163     C               000 0           37,061,273,91163       C
Total Expenses                55,924060,708 45     0               000 C           55,924,060,708 45      0
TotalLJabdllles              116.873,671 ,72943    C   6,623,400,362.00 C         110,250,271 ,34743      C
Total Other                        1,058,000,00    C               000 C                 1,058,000 00     C
Total Revenue                 54,124,495,575.13    C               000 D           54,124,495,57513       C
Tolal Revenue· EXChange        6,157,325,50226     C               000 0            6,157,325,50226 ,     C
Total Revenue· Nonexchange    47,967,170,072 87    C               000 0           47 ,967,170.072 87     C

                                                                                   35,262,766,77651
Exhibit VII 

                                                                                           _
                                                                                                .....       _-_. ­
                                                                                               •..et._ .. - " , , _ ._ _




        FACTS I NOTES Review Schedule
                                                                                                                                        j:

                                                                                                                 --­
                                                                                                                                                    VI
                                       '"                                             '"                      '"                "'                                               '"

                                                                                                            --­
                                                                                                            _._.
                                                                                                                     n,lII 4!I,DDIUIO    US.171"



                                                                                                                                                         _.In_.....
                                                                        ,15,_.lll31
                                                                         1I,_.nI.OO
                                                                         "'l',lOUl
                                                                                                                     U,_,DODOO
                                                                                                                     11._,1100,00
                                                                                                                     'UU,DOO.DO
                                                                                                                                         .JJ :11
                                                                                                                                         .:11 lID
                                                                                                                                         lDUl            _.In-...
                                                                                                                                                         _   • In II'I<>uWncIo




                                                                        .~
                                                                        .~
                                                                        '0,00
                                                                        .~
                                                                                                                   +
                                                                                                                   +
                                                                                                                                        ..~
                                                                                                                                         .~
                                                                                                                                         .~
                                                                                                                                             ~




                                                                        .~                                                               .~



                                                                                                                   t                    f.~
                                                                                                                   +                     .~
                                                                                                                                         .~
                                                                                                                   +                     .~
                                                                                                                                         .~


     :::~:i!\cTU"_C-
          T.. R _ ........................ ConhR_l... r....
                                                                                                                                         .~
                                                                                                                                         .~
                _ . F......... ,,""'"".._ F_
                ecn... II...... I o r _ F.... _ _ F_                                                                                     .~
                                                                                                                                         .~
                 T.. R_ _ ".,.....,.
                                                                                                                                         .~
                                                                                                        T
                                                                        .~
                                                                        .~                          +              +
                                                                        .~
                                                                        .~
                                                                                                    +
                                                                        .~                          +
     eat.....(2j.T..II_C­                                               .~                          +
u-.. c.-.....(lJ. T.. " - "'-""' ............ c..... _     lot , ....   .~                          +
u-.. CcIIlIIm (.l · _ F...... _~f_
                                                                        .~
u.. •.
     CcIIurm.I~J·COnn   R * - fOr _        F... _ , , _.. om._ f _      .~                          +
u-.. CcIUrwI \81' T,.. R--... II........ 
                              :000                        +
                                                                        .~                          +
                                                                        .~
                                                                        .~
                                                                                                        t
                                                                        .~                          +
                                                                        .~
                                                                                                    +
                                                                                                    +
                                                                                                    +
                                                                                                        ;

                                                                                                    +
                                                                                                    +


                                                                        ..   ~
                                                                                        ........   _-- ­
                                                                                     __ 'ACTII_...,_ _ ,_ _
                                                                                                       ...


                                                                                                                      .~
                                                                                                                     ,0.00
                                                    ' _ _ _ _ _ F_                                                    .~
                                                                                              +                       .~

                                                                                              t
                                                                            ..
 ~"
 !..nor la,
 I..-.. ta,
 !..nor 10,
                                                                            to.oo
                                                                            ..
                                                                                 ~


                                                                            '0 ,00
                                                                                 ~
                                                                                              tt                      .~
                                                                                                                     '0.00
                                                                                                                      .~
                                                                                                                      .~




 - ....-
 ~"                                                                         .~
                                                                                              +                       .~




 -----
 ,"-"",bo--
 AlOI'W _ _ ~ tar-4-2OI
                                                                            .~


                                                                            ..
                                                                            .~
                                                                              ~
                                                                                                             ,.t
                                                                                                             ,
                                                                                                             ,.
                                                                                                                      .~
                                                                                                                      .~
                                                                                                                      .~

                                                                                                                     :000




 Ln ,... Coiumn 3, ...... _,11M                                             ....
                                                                            .~
                                                                                 ~
                                                                                                             l-
                                                                                                                      .~
                                                                                                                      .~
 Ln 18, Coiumn 1 _
- U'Ie 111, Coiumn 3, "-.got_1'UIIlI
  U'Ie lC, CoIurm 2 _
                                                                            '0,00
                                                                            .~
                                                                                 ~

                                                                                                             ,.t      •.
                                                                                                                   - j 000

                                                                                                                      .~
                                                                                                                           ~


 ".,. 1C Coiumn l ...... _ I I...                                           '0.00                                     ..~




 uwv.     Coiumn3 
... ....,._It-.
 ,L n2ll,Coiumn2 F"'....... ~s.r­


  UW:HI Coiumn 2 ~_SKunIIon
 l.norZll Coiumnl ............. ROOO 

 1oN..c, Coiumn 2 SI.oIt _ . - c.-m.- s....             
                                                    l­
 u..2C,Coiumn 3,"'-'_1t-. 
                                                                                  I­
 l.nor 20 Coiumn 2 U $ Samvo­
 !.roo 20, Coiumn 3. "'--VO _ 

 lAM 2E. Coiumn 2 01Nf _ _ _
                                     It-. s-:ur­                                                             t

 1oN2E Coiumnl,"'-, _ _            

 lAM •     Coiumn 2 1_ w-..,. ....-

 Lnli Coiumn2 ~~-...... 



       ,

                                               ---..
                                                 .. _ _ .,Goo•• _ . - " "
                                                                                              ,
                                                                                              t
                                                                                                                      ..
                                                                                                                      .~

                                                                                                                     '0.00
                                                                                                                      .~
                                                                                                                      .~
                                                                                                                           ~




           Coiumn !71, SIaMorJ 00c0I LJO'nI. 01
           Coiumn !71, _     01 OocoIl_ s..c,.:t '" ".. 00c0I LJO'nI        •.
                                                                            .~
                                                                              ~
                                                                                              t
                                                                                              1=
                                                                                                                      .~


                                                                                                                      .~
                                                                                                                      .~




t1~~1~"'.""
IWItqNawnoI ..... . .
~c....n;

ow. a.__ Col _ _
                   ...._
                            ~
                                                                            ..
                                                                            .~
                                                                              ~


                                                                            •.

                                                                            .~
                                                                              ~
                                                                                              tt,.                   :000
                                                                                                                      .~
                                                                                                                      .~
                                                                                                                      .~

T_CooI",,,._
s - . I..... ~ ...".....                                                    .~
                                                                            .~
                                                                                              +
                                                                                                                      ..
                                                                                                                      .~
                                                                                                                           ~
                                                                   _. __ .. ,--,-­

                                                                         •.. •..   ~_t   _ _._




                                                                                                     .
                                                       " - _ ,..CB' HI)r,(


                                                                                   ... _-,...    "
                                                                                                 _11.111_n
                                                                                                              m __ _



                                                       .
                                                       .~



                                                       .~
                                                         ~
                                                         ~
                                                                                                 .~

                                                                                                 ••
                                                                                                 ••
                                                                                                 .~       



 ~.
.......
            

        _""IJroI_t.-r                                  . '~                                      ••
                                                       ..••
                                                       .~
                                       .~
U.7 _ _
 Uno"TcII"[~
                   ~




                                                       .~
                                                                                                 ••
                                                                                                 ••
 \.MoI...-I'M
...... O_~_·EMoIY_
                                                         ~
                                                                                                 ••
                                                                                                 ••
...... ,-~.,-~--                                       ••
                                                         ~

                                                                                                 ••
                                                       .••
                                                       L~
                                                        ~
                                                                                                 ••
                                                                                                 ••
                                                                                                 ••
                                                       ••
                                                       .~

                                                       ••
                                                       .~


                                                       ••
                                                                                                 .
                                                                                                 ••
                                                                                                 ••
                                                                                                 ••
                                                                                                 .~
                                                                                                     ~




                                                       ••
                                                       ..
                                                                                                 .~

                                                       ••
                                                       ••
                                                                                                 .~




                                                       ••                                        ••••••
                                                       ••                                         ••
....... 11... " ' ­ 

t-l"-"'_
                                                       ••
                                                       ••                                        ••
                                                                                                 ••



....
....
....
     

.... 
                      _.                         ••
                                                       ••
                                                       ••
                                                       ••
                                                                                                  ••
                                                                                                 •••
                                                                                                  •••

........

....

                      o..:.-IIII~ (DoOII
                            _
                            a.a-
                                    III E..-, (CrdI!

                            _ _ III...E...,
                                       ~~
                                            IC*MI
                                                       ••
                                                       211,111'1
                                                       211,117 "
                                                       ••
                                                                                                 ••
                                                                                                 10,11717
                                                                                                 10, 117 "
                                                                                                 ••
                                                                                                 ••
                                                                                                              m _ _ ........ _ _ 

                                                                                                              EO_._.._.. . _

 UN
   ,--
  ..
          1..... '_"-_0..-.
         ',f_••          ....nc•
                   ~.""~IrW
                                                       ••                                        ••
  ..-
                                                       ••                                        ••
LNl,'_o....My _ _
  "-..
                                         "
                                                       ..
                                                       ••                                        ••
                                                                                                 ••
                _I· ... 

                                                                                                           .. _.-..-_--­
                                                                                                                                    --
                                                                                                     ..,., '6(:11_ .. . - . - _ _ _




                                                                                          "__    F"~lfIIOl1:
                                                                                                                                    _ I W T..   ..~
               ,                                                      _ _...,PI"1I1       ••                                                          ••
          .,"-
                                   ~_.-...c.[


          ,                                                                               ••                                                           ••
  .;,~-
  ~
   ,
           ,
               ,
               ,~-



                                      Alrwrt1..... ~ .....
                                                                                          ••
                                                                                          ••
                                                                                          ••
                                                                                          ••
                                                                                          ••
                                                                                          ••
                                                                                          ••
                                                                                                               I

                                                                                                               ;


                                                                                                               t
                                                                                                                                t

                                                                                                                                 +
                                                                                                                                                       ••
                                                                                                                                                      ••
                                                                                                                                                      ••
                                                                                                                                                      ••••
                                                                                                                                                      ••
                                                                                                                                                      ••
          •,0";-'
               ,                                                                          ••
                                                                                          ••                                                          ••
                                                                                                                                                      ••
   .,"-
   ., -
  u:;~::...
                                 _ _ _ t .... , _
                                                                                          ••
                                                                                          ••
                                                                                          ••
                                                                                          ••
                                                                                                               t

                                                                                                               tt 
             !
                    ••
                                                                                                                                                      ,,••
                                                                                                                                                      ••
                                                                                                                                                      ••
  ~
      1
           '
               .
                   I
                       I
                           a
      ,,- 01 R","",,",                                                                    ••
                                                                                          a.                                    t                     ••
                                                                                                                                                      •••
  ~


      ., -   IZ, IIIK_ Lung
          'I R"*FU                                                                        ••
                                                                                          •••                                                         ••
                                                                                                                                                      ••
1~lIrnmF""" ...._

  ~z,_~_
  81 __ E.noI
                   ,
                           11"
          , , _ _ EtldafV. .
                                  ,
                                 .",>=iGlIOeI"''''           "'V. .
                                                                                          ••
                                                                                          ••
                                                                                          ••
                                                                                                               fI 

                                                                                                               ;
                                                                                                                                t

                                                                                                                                t
                                                                                                                                                      ••
                                                                                                                                                      ••
                                                                                                                                                      ••
        •••" >=iCII.tOM ... _E.noIotV_ 

          ~J~.¥
  ~l,f_~lnouro_ (_,PkI"'l

                                                                                          ••                                    t                     ••
   "J _ _ EnGoIV. .
                                                                                          ••                                    +                     ••
          b) ..... ~tHI .... _E.... oIV_ 

  ~ 4 . F_~I)'_"'In.ur._(-.                                                ..., PI"8J 

                                                                                          ••                                    t                     ••

                                                                                                               r 
 ~

    0,_ .... M!J Etldol v•• 
                                                             ••                                                          ••
    01""'.'."'.OWiI_."'_
  u... ..           __ ~i"
                              End OfV_
                                                   ••                                                          ••
      Ij       IOeI"''''',o_iCIiI
               ~.'i"
                           EtoI Of V_
                                   tHlA_ End OfV_                                         ••
                                                                                          ••                                                          ••
                                                                                                                                                      ••
                                                                                                                                tt 

          D)
 u...t,~_~~
          " _ A.... Er4 Of V_ 

          OJ ........... '.OWiIHeo ....... E.noIflfY_ 

                                                                                          ••
                                                                                          ••                   +                                      ••
                                                                                                                                                      ••
  u...l, M/tfowIJ '''*F.....
    • )IOeI_EMflfV_
                                                                                          ••                   t                                      ••
    "' ... 600....'.... Net ~ E.... ""V_ 

  u... I, Ntpon 0"" AIrw., 1",01: F_
                                                                                          ••
                                                                                                                                £
                    ••

                                                                                                               I

                                     

    .) """ A._ EnG "" V_ 
                                                                ••                                                          •••
    o)inn;.....,..... _Ao_ End Of V_

  u.o.l, C.... Se<W:e _ _ otubRy F_
          IJ Heo ....... [not 01 V_
                                                                                          ••
                                                                                          ••                                    t
                    ••
                                                                                                                                                      ••
  u.o. l l1,
      .)_........ &.0"',,_
                           -..,_t_F_
          01'.40 •• ''''''''_'''''''' E""fIf V_


  bl~.,g" .'....... Heo_&.oolV_

 UNl' , RI_ _ _ ' .... F_
                                                                                          •• 

                                                                                          ••
                                                                                          ••                   +
                                                                                                                                t

                                                                                                                                +
                                                                                                                                                      ••
                                                                                                                                                      ••
                                                                                                                                                      ••
      . ' _ ...._EncIoIV_                                                                 ••                   +                +                     ••
      OJ~Net ........ [notOfV_ 

  u... 12, BI. ~. l""9 
                                                                  ••                   t                +                     ••
          o,_AutUEtoIoIV_ 

          01 " " ' ' - - ' ' """..- EncI Of V_
                                                                                          ••
                                                                                          ••                   t
               t
                                                                                                                                +
                                                                                                                                                      ••
                                                                                                                                                      ••

I~--''=~
                                                                                                               +                +
                                                                                          ••                                                          -:E 

                                                                                          ::
                                                                                              .._._r-__ _ 

                                                                                           _,'.ocTI_.. ,_ _ •_ _

                                                                        "'-_FACTSIIIOT£




  ,-;-;.,,,.- ..... ­
     .-­
     --­
      ""
          

      I J UfeC)'de
                                                                        .~
                                                                        .~
                                                                        .~


                                                                                                                +
                                                                                                                                            .~
                                                                                                                                            .~
                                                                                                                                            .~
                                                                                                                                                  

                                                                                                                                                  

                                                                                                                                                  





      .",-	
     ""'"
  ....- . u _ Copilot Uoo..


         ""
      C)c.-_
                                                                        .~
                                                                        .~
                                                                        .~
                                                                                                                                            ..

                                                                                                                                            .~


                                                                                                                                            .~
                                                                                                                                              ~


      < l ) c - A............ 


     ,­
      I) lftC)odlO



                                                                        .... 

     .-­
  ~	




     ---
      .,~                                                                 ~    	                                                            .~



      ""
      "                                                                 .~
                                                                          ~                                                                 .~
                                                                                                                                            .~




     ,-
  M __
      0) lftC)'de
                                       	                                                                        i
      . ,~

      "..,.,
                  	
                                                                        .. 	
                                                                        .~
                                                                         ~
                                                                                                                ,+                      .. 
.~
                                                                                                                                              ~
      <   )CII
      IIjC_    Iat_ 

             _.......                                                   .~     	                                                            .~




     ,-
      I) lftC)odlO 

                                                                                                                +
     .,-
  T_ _ ......_ " " 

                   __                         IPP~




                                                                        .~                                      +
                                                                                                                +                           .~


          ""
                                                                        .~                                                                  .~


I~c~-"""
                                                                        ~          	                                                        .~



  Urw   IO-~ I2J            T... Dof.....r_ .... ,....,._               .~
                                                                                                                t                       r   .~
  ~~~ ~(S) T....,~                         _ _ _ _ ... """"""'A...,.
I ~E:CoUwI (.) T... ~ _ _ _ _ "" ....... Ao_                            ..
                                                                        .~
                                                                         ~
                                                                                                 +              +
                                                                                                                                            .~
                                                                                                                                            .~



  lOw 10, eo........p). TCUlDoo!otro<I _ _ _ _ .... r _ _
  UrwlO        CoUwI(S).    T "'~_"" F_"
                                                               .-..-	
                                                              __
                                                                        ..

                                                                         ~
                                                                        .~     	
                                                                                                 ):

                                                                                               -+­
                                                                                                                +                           .~
                                                                                                                                            .~
~~riColumn (') , T"""~_""f                              _ _ ....001.    .~     	                                                            .~



  ...... ,',
                  ~M
                      I2J   T"""o....._""St....-.rop~                   .~
                                                                                                i+              t                           .~
  ...... ,',
  ...... ,t,
                      P) Y"""DIIImHI_""s-ontoIIipL_
                      l.~T   ... I)o/wywd ............ ""~L..cI         .. 	
                                                                        .~
                                                                         ~
                                                                                                 +              t                           .~
                                                                                                                                            .~




                                              -,-	                      .~


                                                                        ..
                                                                         ~


                                                                        .~
                                                                               	


                                                                               	


                                                                               	
                                                                                                 +
                                                                                                 t
                                                                                                                +
                                                                                                                t                       .~




                                                                                                                                        .~
                                                                                                                                            .~




                                                                        1......,1.002 ..
                                                                                                 ~_    ... ,o       " ....11 ••00,&.1       .~


                                                                        .~     	                                                            .~


                                                                        'n, I n.otl.tO 	

                                                                        .~
                                                                                                  -"                In, tl2,091 '0      .~


                                                                                                                                        .~


                                                                        •. 	
                                                                        .~
                                                                         ~
                                                                        .~
                                                                                                                                        ..
                                                                                                                                        .~


                                                                                                                                        .~
                                                                                                                                             ~



                                                                                                 t                                      .~


                                                                        .~                       +	                                     .
                                                                                                                                        .~




                W<!I:I03   )~,   ...                                                                                                                  p ... , . "
                                                                                             ..._._r__.. . . . 

                                                                                          _,-.en._ .. I _ _ ' _ _

                                                                   .-- _          F,A.Crs, MH£




                                                                                                                 E
                                                                                                                 t
                                                                                                                                            .~
                                                                                                                                            ,~



                                                                   ,. ~                                                                     ,~

                                                                   ,~                                                                       ,~



                                                                   1IO,.I,I71,Mf.' I
                                                                   1IO,11~..lIIO, l:an
                                                                                                                   10.070,)51,000 00
                                                                                                                   " ._.1:10._110
                                                                                                                                             ....171.•   ,0."
                                                                                                                                            :...,2)."'13..].•
                                                                                                                                                                      _
                                                                                                                                                                      _
                                                                                                                                                                                .......   ~ ,       _ _ _ '1l1

                                                                                                                                                                                ....... cftAl?d. _ _ _                     ,IlI 




                                                                                                                                                                      _       ........ dI.npd, _ _ _ 1/1'

                                                                    12,lu.,"""salO                                 U,MO,I5I.1IOO.oo          u.~r    •.• 1O ...   

                                                                    ',0.M,"',1S1.11                                ,,0)1.... ,1100.00        1,).1'" 
                _         ... _~_".,.._IIlI

                                    Gtou                           0.00                                                                     ,~

                                           '--'"~_                 0.011                                                                    ,~




                                           1.-.0. 11......._   _
                                                                   ,. ~
                                                                   .G.oo

                                                                    'al.CIOII,_,ooo..ao
                                                                                                 _u
                                                                                                 _u              ,IU,1IOO,_,1IOO,oo
                                                                                                                                            ,~

                                                                                                                                            ,~




                                                                                                                                            ,~
                                                                                                                                                     





                                                                                                                                                     


                                                                    171,_.0IIII._.110

                                                                    I N,....,n. ...
                                                                    11 ,170,' '''' ' 1M
                                                                                                 _u
                                                                                                 _
                                                                                                 _u
                                                                                                  u
                                                                                                                   1"71,1100,I11III._.110


                                                                                                                   1.,1115,_ 00
                                                                                                                   I I,HO,. ...1IOO,OO
                                                                                                                                            ,~





                                                                                                                                            . 215-"1
                                                                                                                                             ,~
                                                                                                                                                                      _ _ CIIUIgOCI,_ecllIIit _ l l l l - . .

                                                                                                                                                                                                    ___
                                                                                                                                                                      _ _ dIangood, _ _ _ _ _ Ill' - . ,
                                                                                                                                                                                                                           '1l1 - . .
                                                                                                                   11,111",3,-.00            nl ."
                                                                                                                                                                      _"'_c~




                                                                    1I ,171,:JI2,".W

                                                                   ,~




                                                                                                 _u                                         ,~




                                                                                                                                                                      _         .....               _ _ ...... 'r.JI_

                                                                                                 _u                                         _,2u••n.00




                                                                                                                                                                                          ~
                                                                                                                                                                                                ,
                                                                    1,"",JM,12S..1IO                               .n.OOl.lIIIII.oo


                                                                                                                   u ...3<III,OOOOO         ,~




                                                                   ,.~
                                                                   ,~

                                                                   .0.110

                                                                   w,_,"",!01JII
                                                                                                                                            ,~



                                                                                                                                            ,
                                                                                                                                            ,~

                                                                                                                                              .
                                                                                                                                            :"._,o",souo
                                                                                                                                                                      ro _ _ "'PO'I_ ......
                                                                                                                                                                      ED _ _ _ _ ......
                                                                   )1,_.1105,1)1.15                                                          H,_,505,'" IS
                                                                   101,l".'1l,]:JI.U             FVa,~             It,UI,OH.Kl.M             ,,,'In,lu.on27           , ................ t ... to .-.pU_, .... b.,• ...,. "'" 10 ran




                                                                    .
                                                                                                                                            ,~

                                                                                                                                            ,~




L.JNI.   r_ow..ec..-­
                                                                   ,
                                                                   .0.110
                                                                                                                 t
                                                                                                                 +
                                                                                                                                            ,~



                                                                                                                                            ,
                                                                                                                                            ,~
                                                                                                                                              .
L.JN21 CGUm2 F_ 1_ _
                                                                   ,.
                                                                   ,~                                                                       ,~




                    f_
L.JN 21 Cdurm 1. F.al2IXIO _ _                                                                                                              ,~

...... 21,CGUm .. F _ l I X I l _                                  )II,1M,lI5"....,              ED--.C"",""-,     •."",1".'110.1$          4)11.UI, I04 7'           ,.............._to...,.,u..,_....lll 

L.JN 21 C<IU>o'I $   lOO'l_                                        .....',II' .•n11              ED_Cop",""""      oII.)W,l1unl1            ,~




                                                                   ,~                                                                       ,~




          lW1IIOJ   'SI ....                                                                                                                                                                                          _,01'
                 __ 'AC"ft_ . . . _ _ • _ _
                     ¥.......... . - _ • . ­




         .~                                    .~
         .~                                    .~
         .~                                    .~
         _0,00                                 -0.00




         .~                                    ,II.IID




                                                         +





~U''''                                                        ~1'"
